SECURITY
CLEARANCES

Actions Needed to
Strengthen Controls
over Top Secret
Security Clearance
Requirements




               OIG-13-3
                Office of Inspector General
          U.S. Government Accountability Office
                     Report Highlights

September 2013


SECURITY CLEARANCES
Actions Needed to Strengthen Controls over Top Secret Security
Clearance Requirements

Objective

The Office of Inspector General (OIG) evaluated the extent to which the
U.S. Government Accountability Office (GAO) has established effective
policies and procedures (controls) to review and validate top secret
security clearance requirements.

What OIG Found

While GAO has established a policy to review and validate security
clearances, it does not provide detailed procedures for designating
positions as sensitive (i.e., to require a security clearance). Our work
showed that the Director, Office of Security (OS) grants and renews top
secret security clearances solely based on security clearance requests
from unit heads. OIG found that decisions by the Director, OS to grant or
renew top secret clearances in fiscal year 2012 were, for the most part,
made without justification to support employees’ needs for access to top
secret information. Without these controls, GAO has no reasonable
assurance that only employees who need access to top secret
information are granted top secret clearances.

What OIG Recommends

OIG recommends that the Comptroller General direct the Chief
Administrative Officer to oversee the establishment and implementation of
detailed procedures that define consistent criteria and processes to
ensure that the agency’s position designation and position sensitivity
policies are carried out. OIG also recommends that GAO establish
procedures to ensure that decisions to grant top secret security
clearances are grounded in written justifications. Such documentation
should include sufficient support to demonstrate each employee’s need
for access to top secret information. GAO agreed with OIG’s
recommendations.




                                          OIG-13-3 Personnel Security Clearances
                                                   United States Government Accountability Office




Memorandum
Date:         September 27, 2013

To:           Comptroller General Gene L. Dodaro

From:         Inspector General Adam R. Trzeciak

Subject: Security Clearances: Actions Needed to Strengthen Controls over Top Secret
         Security Clearance Requirements
The U.S. Government Accountability Office (GAO) conducts a wide range of financial and
performance audits, program evaluations, management reviews, investigations, and legal
services spanning a broad range of government programs and functions. Certain GAO work
may involve access to classified information or facilities that require a security clearance for
unescorted entry. Consistent with GAO’s mission and national security interests, employees
requiring access to classified information must have the appropriate security clearances.
The Office of Inspector General (OIG) reviewed management controls in place to identify
and validate top secret security clearance requirements.

Background
GAO has established policies to review and validate top secret security clearance
requirements. According to GAO Order 0910.1, GAO Security Program, the Chief
Administrative Officer is responsible for developing, implementing, and overseeing the GAO
Security Program, including personnel security. 1 In addition, supervisors, including unit
heads (e.g., managing directors and heads of mission support offices and staff offices), in
consultation with the Chief Human Capital Officer and the Director, Office of Security (OS),
are required to designate (i.e., label) every position under their jurisdiction as either a public
trust position 2 or national security sensitive position. 3 When designating positions, unit heads
are to ensure that a person’s duties are consistent with the position designation and the
personnel security requirements for the position.

1
  Personnel security is a program to ensure that all covered persons who have been granted access to
information, property, or other assets or resources under the authority and control of GAO meet personnel
security standards commensurate with the sensitivity of their positions.
2
  A public trust position (i.e., a position that does not require access to classified information) is a position in
which an individual’s action or inaction could diminish public confidence in, or otherwise have an adverse impact
on, the integrity, efficiency, or effectiveness of GAO or other government activities.
3
  As outlined in Executive Order No. 10450, Security Requirements for Government Employment (Apr. 27, 1953
as amended) and Part 732 of Title 5 of the Code of Federal Regulations (CFR), a position should be designated
sensitive based on an assessment of the nature of the position and degree of damage an individual, who
occupies the sensitive position, could cause to national security. As defined in 5 C.F.R. § 732.102: a sensitive
position (1) involves activities of the government that are concerned with the protection of the nation from foreign
aggression or espionage, including development of defense plans or policies, intelligence or counterintelligence
activities, and related activities concerned with the preservation of the military strength of the United States; and
(2) requires regular use of, or access to, classified information (emphasis added).



Page 1                                                          OIG-13-3 Personnel Security Clearances
The GAO order defines a national security sensitive position (i.e., sensitive position) as a
position that requires access to (1) classified information; (2) a classified facility, which is
any facility that requires a security clearance for admittance; or (3) a national security
system. 4 If a position meets at least one of these requirements, the order calls for the unit
head to designate the position as national security sensitive (i.e., to require a security
clearance), consistent with Executive Order 10450 and Part 732 of Title 5, Code of Federal
Regulations.

Once a position has been designated as sensitive, the Director of OS is required to assign a
sensitivity level to the position. The sensitivity level determines whether the position requires
a secret or top secret clearance. This assignment is based on an assessment of the degree
of damage that an individual in that position could cause to a critical GAO or other
government activity or interest, including national security. GAO’s personnel security
program Directive 0910.1-01, Personnel Security Program, 5 calls for sensitivity levels to be
assigned as follows:
•   Non-critical sensitive, which is any position involving potential serious impact or damage
    to national security. Non-critical sensitive positions include those involving access to
    confidential or secret information.
•   Critical sensitive, which is any position that involves the potential for exceptionally grave
    impact or damage to national security. Critical sensitive positions include those involving
    access to top secret information.
•   Special-sensitive, which is any position that is at a level higher than critical sensitive
    because of (1) the greater degree of damage to national security that an individual could
    effect by virtue of the position, or (2) special requirements applicable to comparable
    positions in the executive branch of the government that are governed by requirements
    over and above those of Executive Order 10450.

The Director, OS, or designee, is the single clearance-granting authority for GAO. The
Director, OS, issues two levels of security clearances—top secret and secret, based on the
sensitivity level.

When notified of a new employee appointment, OS will inform the relevant unit head by e-
mail to request that the unit head confirm sensitivity level and security clearance
requirements, based on the duties of the new employee’s position.

Employees who are currently holding a security clearance are subject to reinvestigation. The
level of security clearance determines the frequency of reinvestigation: for top secret
clearance, a reinvestigation is required once every 5 years; for secret clearance, a
reinvestigation is required once every 10 years. When a current employee’s clearance is
due for an update, OS will inform the relevant unit head by e-mail of the need to update the

4
  A national security system is any information system (including any telecommunications system) used or
operated by an agency or by a contractor of an agency, or other organization on behalf of an agency—(i) the
function, operation, or use of which—(I) involves intelligence activities; (II) involves cryptologic activities related
to national security; (III) involves command and control of military forces; (IV) involves equipment that is an
integral part of a weapon or weapons system; or (V) is critical to the direct fulfillment of military or intelligence
missions; or (ii) is protected at all times by procedures established for information that have been specifically
authorized under criteria established by an executive order or an act of Congress to be kept classified in the
interest of national defense or foreign policy.
5
  GAO Directive 0910.1-01, Personnel Security Program (July 1, 2013). This directive superseded GAO Directive
0910.1-01, Personnel Security Program, dated October 19, 2007, to reflect an organizational change.



Page 2                                                            OIG-13-3 Personnel Security Clearances
investigation, and request that the unit head confirm continued position sensitivity level and
security clearance requirements.

In fiscal year 2012, an initial top secret security investigation cost $2,836, and the 5-year
reinvestigation cost $1,754. An initial secret clearance investigation cost $752, and the 10-
year reinvestigation cost $228. From fiscal years 2007 through 2012, GAO spent, on
average, about $500,000 annually on personnel security investigations. Based on data in
GAO’s central repository of personnel security determination records—known as the
Security Clearance Online Tracking System (SCOTS)—as of November 19, 2012, more
than half of GAO’s employees, 27 percent and 26 percent, respectively, held top secret and
secret security clearances (see figure 1).

Figure 1: GAO Employees’ Security Clearance Profile, as of November 19, 2012




Objective, Scope and Methodology
This report addresses the extent to which GAO has established effective policies and
procedures (controls) to review and validate top secret security clearance requirements to
ensure that only employees with a need for regular access to top secret information are
granted top secret clearances. To address the objective, we identified applicable policies
and procedures and interviewed OS management officials who administer the personnel
security program about the process for obtaining or renewing security clearances. In
addition, we interviewed GAO’s Chief Human Capital Officer and Deputy Chief Human
Capital Officer, the Managing Director and Deputy Managing Director of Infrastructure
Operations, and select mission team managing directors to obtain their perspectives on
GAO policies and procedures for reviewing and validating top secret clearance
requirements. We also reviewed executive orders, federal regulations, and GAO policies


Page 3                                                  OIG-13-3 Personnel Security Clearances
and procedures related to the personnel security clearance process to identify clearance
criteria and access requirements.

We analyzed clearance data from SCOTS, as of November 19, 2012, to determine the
number of GAO employees who (1) were granted initial top secret clearances, and (2) had
top secret clearances renewed in fiscal year 2012—the most recent year for which GAO-
wide clearance data were available. We selected a simple random sample of 67 (of 213) top
secret clearances granted or renewed in fiscal year 2012 6 to evaluate GAO’s personnel
security clearance policies, procedures, and practices against criteria in GAO’s Standards
for Internal Control in the Federal Government. 7 To assess the effectiveness of GAO’s
controls, the evaluation included a review of electronic SCOTS data files and hard copy
personnel security records used by OS to capture personnel security clearance eligibility
information. The results from our security clearance record reviews can be generalized to all
213 top secret security clearances granted or renewed in fiscal year 2012. 8

We supplemented our work with a web-based survey of all GAO employees who had their
top secret clearances renewed in fiscal year 2012—the most recent year for which GAO-
wide clearance data were available—to obtain their perspectives about the need for
clearances in the performance of their job duties and responsibilities in the last 5 years.
Additional information on our scope and methodology is presented in attachment I, and the
frequency of responses for selected survey questions is presented in attachment II.

We conducted this performance audit from September 2012 to September 2013 in
accordance with generally accepted government auditing standards (GAGAS), except for
the quality control and assurance standard requiring an external peer review of our audit
organization every three years. The Inspector General is in the process of scheduling a peer
review in fiscal year 2014. GAGAS requires that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and
conclusions based on our audit objectives. We believe that the evidence obtained provides
a reasonable basis for our findings and conclusions based on our audit objective.




6
  We calculated the sample size of 67 clearances for a proportion estimate, assuming a population of 50 percent,
to achieve a margin of error of 10 percentage points at the 95 percent confidence level.
7
  GAO, Standards for Internal Control in the Federal Government, GAO/AIMD-00-21.3.1 (Washington, D.C.:
November 1999); GAO, Internal Control Management and Evaluation Tool, GAO-01-1008G (Washington, D.C.:
August 2001).
8
  While our review looked at how security clearance requirements are documented, we did not revisit or “second
guess” decisions to grant individual clearances. In addition, the scope of our review did not include the
adjudication process for determining eligibility for access to classified information.



Page 4                                                        OIG-13-3 Personnel Security Clearances
Internal Controls in the Clearance Process Do Not Provide Reasonable
Assurance that Only Employees Who Need Access to Top Secret
Information are Granted Top Secret Clearances
While GAO has an order 9 to set its policy for its personnel security program and a directive 10
to implement its order, GAO does not provide detailed procedures for designating sensitive
positions, giving unit heads and OS discretion to decide how the policy should be
implemented. Current agency practices do not reflect the stated policy. None of the
positions occupied by the 1,592 employees who held security clearances (as of November
19, 2012) were designated as sensitive, including the 823 employees who held top secret
security clearances. Our work showed that, in the absence of sensitive position
designations, decisions to grant or renew top secret security clearances are solely based on
requests from unit heads, not on OS’s independent determination of sensitivity. That is,
decisions to grant or renew top secret clearances in fiscal year 2012 were, for the most part,
made without justification of employees’ needs for access to top secret information. Without
these controls, GAO has no reasonable assurance that only employees who need access to
top secret information are granted top secret clearances.

In February 2008 and in subsequent reports examining personnel security clearance
processes, GAO has highlighted the importance of a strong requirements-determination
process in managing the workload and costs associated with the security clearance
process. 11 GAO noted that, while having a large number of cleared personnel can give the
military services, agencies, and industry a great deal of flexibility when assigning personnel,
having unnecessary requirements for security clearances increases the investigative and
adjudicative workloads that are required to provide the clearances and flexibility. GAO
further noted that requests for clearances for positions that do not need a clearance or need
a lower level of clearance increases costs unnecessarily.

Detailed Procedures Not Established for Designating Position Sensitivity

GAO has not established detailed procedures that define consistent criteria and processes
to ensure that the agency’s sensitive position designation policies are carried out. GAO’s
personnel security program directive requires unit heads to determine whether a given
position requires access to classified information, and if access is required, to designate the
position to require a security clearance. As of November 19, 2012, none of the 823 positions
held by GAO employees with top secret clearances were designated as positions that
required access to top secret information. 12 GAO’s personnel security program directive also
requires the Director of OS to assess and assign a sensitivity level to positions that require a
security clearance; but, of the 823 positions that employees with top secret clearances held,
none were assigned sensitivity levels.


9
    GAO Order 0910.1.
10
     GAO Directive 0910.1-01.
11
   GAO, Security Clearances: Agencies Need Clearly Defined Policy for Determining Civilian Position
Requirements, GAO-12-800 (Washington, D.C.: July 12, 2012); Personnel Security Clearances: Continuing
Leadership and Attention Can Enhance Momentum Gained from Reform Effort, GAO-12-815T (Washington,
D.C.: June 21, 2012); Personnel Clearances: Key Factors for Reforming the Security Clearance Process, GAO-
08-776T (Washington, D.C.: May 22, 2008); and Personnel Clearances: Key Factors to Consider in Efforts to
Reform Security Clearance Processes, GAO-08-352T (Washington, D.C.: February 27, 2008).
12
   Based on data in GAO’s central repository of personnel security determination records.



Page 5                                                      OIG-13-3 Personnel Security Clearances
Unit heads provided various opinions on the reasons for not following GAO’s position
designation policy. For example, unit heads cited the need for flexibility in assigning staff to
meet congressional mandates, the length of time necessary to complete a background
investigation to support a top secret clearance, the nature of the way the team assigns staff
to engagements, the increasing number of engagements that require access to classified
information, and the unpredictability of the engagement work that needs to start immediately
as reasons position designations are not practical.
Senior officials responsible for a range of administrative and operational support services
said that unit heads are the appropriate agency officials for determining top secret security
clearance requirements, and because OS has a mission support role, it is reluctant to
question the security clearance requirements determined by the unit heads. These same
officials also cited the nature of GAO’s mission and congressional workload, declining staff
resources to support congressional priorities, and the length of time it takes to issue a top
secret clearance as obstacles to implementing GAO’s position designation policy.
Further, senior GAO human capital officials said that the majority (56 percent) of the people
at GAO who are engaged in mission work are in the agency’s analyst job series (347), a job
series unique to GAO. According to these officials, GAO’s existing policy for position
designations is difficult to apply to analyst positions because GAO’s position description for
the analyst job series is generic and covers a wide range of duties.
While flexibility is cited as one explanation for not designating positions, we have no
evidence to suggest that following a designation process would reduce the flexibility to
assign staff to engagements that require access to top secret information.
According to Standards for Internal Control in the Federal Government, management is
responsible for developing detailed policies, procedures and practices to fit agency
operations. According to OS officials, when GAO implemented its original position
designation policy in 1994, the agency had well-defined procedures in place to help ensure
consistent criteria for evaluating a position’s need for a security clearance. 13 The original
policy was implemented in part to reflect changes in executive branch policy, but also to
address concerns about granting unnecessary security clearances. At the time, the new
designation system was expected to result in a significant decrease in the number of
security clearances.
Position designation was a key first step in GAO’s security clearance eligibility process, and
a position’s duties and responsibilities, its impact on the efficiency of the federal service, and
national security considerations were all factors in the position designation process. The
designation process in 1994 required unit heads to apply some basic principles to position
designations, which include the following: 14
•    “base designations on an assessment of an employee’s actual duties and
     responsibilities, not on speculation about what kind of duties and responsibilities an
     employee might assume in the future, or what kind of information the employee might
     handle if the employee were to depart from the scope of his/her duties.”
•    “do not make a designation on the basis of whether a particular GAO employee has
     previously held or been eligible for a security clearance. Do not consider an incumbent’s


13
   GAO Notice 0910.1 (A-94), GAO Position Designation Procedure (January 7, 1994), and GAO Notice 0910.1
(B-94), Processing Procedures for Suitability and Clearability Determinations (January 7, 1994).
14
   GAO Notice 0910.1 (A-94).



Page 6                                                     OIG-13-3 Personnel Security Clearances
       grade in the decision process; designating officials must focus on a person’s job
       responsibilities and functions.”
•      “do not designate a position in a higher risk category that would require a more
       extensive investigation than is justified by the position.”
The procedures reflected these principles and outlined criteria for following them. For
example, the procedures noted that GAO designated each employee’s position into one of
two categories—national security position (i.e., a position requiring access to classified
information) or public trust position. The duties and responsibilities of a national security
position required access to classified information. In addition, the procedures indicated that
for background investigation and clearance purposes, as a next step, GAO had to decide
whether the position required access to top secret information or to secret or confidential
information. Personnel security action requests containing such information as the name of
the employee, position title, job series (e.g., analyst job series 347) were then submitted to
OS for review and validation.
According to OS officials, GAO stopped using these procedures in 2007 when the agency
implemented its current personnel security order. In the absence of detailed procedures for
designating sensitive positions, our work showed that the Director, OS, grants and renews
top secret security clearances based solely on security clearance requests from unit heads.

Top Secret Clearances Generally Granted without Justification to Support Need

OIG found that decisions by the Director, OS, to grant or renew top secret clearances in
fiscal year 2012 were, for the most part, made without justification to support employees’
needs for access to top secret clearances. GAO’s personnel security policy and procedures
do not require unit heads to submit, or OS to maintain, sufficient written justification to
support the need for access to top secret information. As a result, an important system of
checks and balances, the separation of duties, is not effectively implemented.
Federal standards for internal control and associated guidance state that agencies should
document key decisions in a way that allows decisions to be traced from initiation, through
processing, to after completion. Federal standards for internal control and associated
guidance also state that agencies should document key activities in such a way to maintain
the relevance, value, and usefulness of these activities to management in controlling
operations and making decisions. GAO’s personnel security directive instructs OS to e-mail
unit heads to request (1) position sensitivity level and (2) security clearance requirements
based on the duties of each new employee’s position. For clearance renewals, the directive
instructs OS to confirm continued position sensitivity level and security clearance
requirements, or information regarding change in status. According to the directive, “the type
of investigation required depends on the unit head’s response.” 15
Based on our sample of 67 recently granted or renewed top secret security clearances, we
estimate that about 76 percent of 213 personnel security records did not contain any
documentation regarding the position sensitivity level and security clearance requirements
to support the needs for top secret clearances. 16 In addition, we estimate that 13 percent of
213 records included information to support the needs for top secret clearances and 11
percent of them included limited information to support the needs for top secret clearances.
15
     GAO Directive 0910.1-01.
16
  Because we selected a simple random sample of top secret clearances for review, the results from our security
clearance record review can be generalized to all 213 top secret security clearances granted or renewed in fiscal
year 2012. Each estimate has a margin of error of plus or minus 12 percentage points or fewer.



Page 7                                                         OIG-13-3 Personnel Security Clearances
Example e-mail exchanges and other documentation shown in figure 2 illustrate the more
detailed justification unit heads provided to OS confirming their top secret security clearance
requirements for employee positions.

Figure 2: Examples of Records That Included Information to Support Employees’ Needs for Top Secret
Clearances That Were Granted or Renewed in Fiscal Year 2012

“________ currently has a secret security clearance. She has been staffed to an engagement that I will be co-
AICing. In the course of this engagement we will definitely be operating with secret level documents, and will
likely also review documents and/or conduct interviews at the top secret level. The director for the engagement
has validated the need for _______ to have her security clearance upgraded from secret to top secret. Please
advise as to next steps so that we can start this process.”
E-mail from an analyst (not a unit head) to OS
                                                        ---------------

“Your approval is requested to obtain SCI clearance with SI, TK, G, and HCS accesses for the following
individuals______. These individuals will be working on engagements involving _____. They will require access
to SCI information with SI, TK, G, and HCS information to conduct these engagements.”
                                                                  a
Memorandum from a unit head to the Comptroller General

                                                        ----------------

“I am requesting a top secret clearance for _____. I have just assigned ______ as the AIC on our review.
______ currently possesses a secret level clearance. Given the nature of the work (and where we will be
conducting the work), the possession of a TS clearance would be essential to our access to facilities, and, of
course, any necessary information we may need that is classified at the TS level.”
E-mail from a unit head to OS

Source: GAO Office of Security.
a
 The unit head submitted a request to the Comptroller General to obtain a sensitive compartmented information (SCI)
clearance for an employee. According to an OS official, the employee did not have a top secret clearance at the time the SCI
request was submitted. The investigative requirement for access to top secret and SCI is a favorably adjudicated single scope
background investigation. According to an OS official, OS first granted the employee a top secret security clearance and then
processed the request for the SCI clearance.


As shown in figure 3, however, the e-mail exchanges and other documentation represent
the more limited information unit heads provided to OS confirming their top secret security
clearance requirements for employee positions.




Page 8                                                                     OIG-13-3 Personnel Security Clearances
Figure 3: Examples of Records That Included Limited Information to Support Employees’ Needs for Top
Secret Clearances That Were Granted or Renewed in Fiscal Year 2012

“___ would like to request a top secret clearance for ______.” “Please let me know if additional information is
needed.”

E-mail from an Assistant Director to OS
                                                      --------------

“As requested, below are the names of ___staff who we want to put in for top secret clearances. We could
prioritize these if necessary as we discussed. Please reply to all with your approval/disapproval.”

“Approved. These folks are all permanent ___staff and will need a top secret clearance.”

E-mail from a Director to a unit head and the unit head’s response forwarded to OS

                                                     ---------------

“Needs TS per _____”

Annotation in GAO’s central repository of personnel security determination records—known as the Security
Clearance Online Tracking System
Source: GAO Office of Security.



OS officials acknowledged that clearance records intended to support security clearance
decisions to grant or renew top secret security clearances generally do not contain sufficient
justification regarding employees’ needs for access to top secret information primarily
because GAO’s personnel security program policy and directive do not explicitly require it.
Senior officials responsible for a range of administrative and operational support services
and OS officials stated that OS is reluctant to question unit head responses because they
believe that the unit heads are in the best position to make determinations regarding which
employees require a top secret clearance. Without documentation, however, OS is not
positioned to confirm employees’ top secret security clearance needs. The Director of OS’s
decisions to grant or renew top secret security clearances, based on little or no information
from unit heads to support top secret security clearance requirements, could potentially lead
to unnecessary top secret clearances.
Our survey of GAO employees who had their top secret security clearances renewed in
fiscal year 2012 showed that GAO renewed top secret security clearances that were not
needed over the past 5 years, or were granted at a level higher than needed. Specifically,
almost one-third of survey respondents (31 of 108) indicated that they did not use their top
secret clearances at all in the last 5 years. Twenty-six of the 31 survey respondents reported
that they only needed to access information classified lower than top secret in the
performance of their job duties or responsibilities in the last 5 years, and the remaining 5
survey respondents reported that they did not need a top secret or secret clearance at all in
the last 5 years. 17



17
  For purposes of our survey, information lower than top secret is defined as (1) secret or confidential information
that require protection against unauthorized disclosure in the interest of national security and (2) sensitive
information under the authority or control of GAO that is not classified information, but that requires protection to
ensure that it is not released to the public or any other individual or organization not under the authority or control
of GAO without further review because it may be exempted from such disclosure.



Page 9                                                                 OIG-13-3 Personnel Security Clearances
In response to an open-ended question asking survey respondents to provide any additional
comments about their job duties or responsibilities, one respondent stated that he or she
had to access top secret information only once in a 23-year career. Although another
respondent had not used his or her clearance, the respondent stated that having the
clearance provides the respondent’s mission team the flexibility to staff him or her to
engagements which may require it.

Survey results also offer insights into whether clearance decisions are based on
demonstrated needs for access to top secret information. In responding to a survey question
about what best describes the reason that their top secret security clearances were renewed
in fiscal year 2012, 43 percent of respondents (46 of 108) cited that their job duties or
responsibilities require access to top secret information; 57 percent of survey respondents
(61 of 108) cited that their job duties or responsibilities may require access to top secret
information at a future date; and one survey respondent reported that he or she was unsure
about the reason his or her top secret clearance was renewed.

In providing additional comments about their job duties or responsibilities requiring a top
secret clearance, one respondent indicated that his or her current job duties typically do not
require access to top secret information, and they have not required this kind of access in
the last 5 years. The respondent further indicated that several years ago he or she accessed
top secret information, and given the current position and the nature of the portfolio of work,
he or she can never be sure when an engagement may be assigned that would require top
secret access. In addition, another respondent stated that in some agencies and locations, a
lack of a top secret clearance will prevent GAO from access to officials or information in a
reasonable time frame in the conduct of an audit. The respondent also said that therefore, it
is very useful to have top secret clearances for at least some mission team analysts and
auditors in case the clearances are needed. A different respondent indicated that, at this
time, it is not clear when or how their clearance would be used.

Conclusions
Consistent with GAO’s mission and national security interests, GAO requires employees
who need access to classified information to have the appropriate security clearances. GAO
has established policies to review and validate top secret security clearance requirements,
but a lack of detailed procedures has led to agency practices—specifically, granting security
clearance requests for positions that have not been designated as national security
sensitive—that do not reflect those policies.

In addition, while we believe that unit heads are in the best position to know their
employees’ clearance requirements, their requests currently lack the documentation that
would allow OS to independently validate employee needs. Without these controls, there is
no reasonable assurance that only employees who need access to top secret information
are granted top secret clearances.

Recommendations
1. The OIG recommends that the Comptroller General direct the Chief Administrative
   Officer to oversee the establishment and implementation of detailed procedures that
   define consistent criteria and processes to ensure that the agency’s position designation
   and position sensitivity policies are carried out.




Page 10                                               OIG-13-3 Personnel Security Clearances
2. We also recommend that the Comptroller General direct the Chief Administrative Officer
   to establish procedures to ensure that decisions to grant top secret security clearances
   are grounded in written justifications. Such documentation should include sufficient
   support to demonstrate each employee’s need for access to top secret information.

Agency Comments
The Inspector General provided GAO with a draft of this report for review and comment.
GAO provided written comments, which are reprinted in attachment III. GAO agreed with our
recommendations and described actions planned to address them. Specifically, GAO stated
that the security clearance issuance and renewal process needs to be revised to ensure that
GAO Order 0910.1, policies and procedures are current and to ensure that adequate
documentation is in place to justify a need for a clearance. In addition, GAO has assembled
a team of key senior managers to evaluate the agency’s current policies and procedures to
determine what changes are needed to improve oversight and monitoring of the security
clearance issuance and renewal process.

Actions taken in response to our recommendations are expected to be reported to our office
within 60 days.

                                   __________________

We are sending copies of this report to the other members of GAO’s Executive Committee
(the Chief Operating Officer, Acting Chief Administrative Officer/Chief Financial Officer, and
General Counsel), GAO’s Audit Advisory Committee, and other key managers. The report is
also available on the GAO website at http://www.gao.gov/about/workforce/ig.html.

If you or your staff have any questions about this report, please contact me at (202) 512-
5748 or trzeciaka@gao.gov. Contact point for GAO’s Public Affairs may be found on the last
page of this report. Key contributors to this report were Sandra Burrell; James Ashley; Cathy
Helm; Cynthia Hogue; Jill Lacey; and Michael Volpe.

Attachments (3)




Page 11                                              OIG-13-3 Personnel Security Clearances
Attachment I: Objective, Scope and Methodology
This report addresses the extent to which GAO has established effective policies and
procedures (controls) to review and validate top secret security clearance requirements to
ensure that only employees with a need for regular access to top secret clearance
information are granted top secret clearances. To address the objective, we identified
applicable policies and procedures and interviewed OS management officials who
administer the personnel security program about the process for obtaining or renewing
security clearances. In addition, we interviewed GAO’s Chief Human Capital Officer and
Deputy Chief Human Capital Officer, the Managing Director and Deputy Managing Director
of Infrastructure Operations, and select mission team managing directors to obtain their
perspectives on GAO policies and procedures for reviewing and validated top secret
clearance requirements. We also reviewed executive branch orders, federal regulations, and
GAO policies and procedures related to the personnel security clearance process to identify
clearance criteria and access requirements.

We analyzed clearance data from GAO’s central repository of personnel security
determination records, known as the Security Clearance Online Tracking system (SCOTS),
as of November 19, 2012, to determine the number of GAO employees who (1) were
granted initial top secret clearances, and (2) had top secret clearances renewed in fiscal
year 2012—the most recent year for which GAO-wide clearance data were available. We
identified 213 employees and selected a simple random sample of 67 (of 213) top secret
clearances granted or renewed in fiscal year 2012 18 to evaluate GAO’s personnel security
clearance policies, procedures, and practices against criteria in GAO’s Standards for
Internal Control in the Federal Government. 19 To assess the effectiveness of GAO’s
controls, the evaluation included a review of electronic SCOTS data files and hard copy
personnel security records used by OS to capture personnel security clearance eligibility
information. The results from our security clearance record reviews can be generalized to all
213 top secret security clearances granted or renewed in fiscal year 2012. 20 On the basis of
information from and discussions with OS management officials related to the controls in
place to maintain the integrity of clearance data, we determined that the information in
SCOTS was sufficiently reliable for the purposes of defining our audit population and
selecting a sample for further review.

We supplemented our work with a web-based survey of all GAO employees who had their
top secret clearances renewed in fiscal year 2012—the most recent year for which GAO-
wide clearance data were available—to obtain their perspectives about the need for top
secret clearances in the performance of their job duties and responsibilities in the last 5
years. Based on information on top secret security clearances provided by the OS, we
identified 154 employees who had their top secret clearances renewed in fiscal year 2012
that would serve as the population for this survey. We later identified 11 employees that
were out of scope, including those who retired or left GAO in fiscal year 2013. We sent the
survey to 143 employees. We received responses from 108 of the 143 surveyed GAO

18
   We calculated the sample size of 67 clearances for a proportion estimate, assuming a population of 50 percent,
to achieve a margin of error of 10 percentage points at the 95 percent confidence level.
19
   GAO, Standards for Internal Control in the Federal Government, GAO/AIMD-00-21.3.1 (Washington, D.C.:
November 1999).
20
   While our review looked at how security clearance requirements are documented, we did not revisit or “second
guess” decisions to grant individual clearances. In addition, the scope of our review did not include the
adjudication process for determining eligibility for access to classified information.



Page 12                                                         OIG-13-3 Personnel Security Clearances
employees—a 76 percent response rate. The web-based survey was administered from
March 13, 2013, to March 29, 2013. Respondents were sent an e-mail invitation to complete
the survey on a GAO web server using a unique username and password. During the data
collection period, we sent reminder e-mails to nonresponding employees. Because this was
not a sample survey, it has no sampling errors. The practical difficulties of conducting any
survey may also introduce nonsampling errors, such as difficulties interpreting a particular
question, which can introduce unwanted variability into the survey results. We took steps to
minimize nonsampling errors by pretesting the questionnaire in person with seven GAO
employees in various audit and research teams, at various grade levels, based at
headquarters in Washington, D.C. and in various field offices across the country. We
conducted pretests to make sure that the questions were clear and unbiased, the
information was readily obtainable, and the questionnaire did not place an undue burden on
respondents. An independent reviewer also reviewed a draft of the questionnaire prior to its
administration. We made appropriate revisions to the content and format of the
questionnaire after the pretests and independent review. All data analysis programs used to
generate survey results were independently verified for accuracy. Additionally, in reviewing
the answers from GAO employees, we confirmed that they had correctly bypassed
inapplicable questions (skip patterns). Based on our findings, we determined that the survey
data are sufficiently reliable for the purposes of this engagement.

We conducted this performance audit from September 2012 to September 2013 in
accordance with generally accepted government auditing standards (GAGAS), except for
the quality control and assurance standard requiring an external peer review of our audit
organization every three years. The Inspector General is in the process of scheduling a peer
review in fiscal year 2014. GAGAS requires that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and
conclusions based on our audit objectives. We believe that the evidence obtained provides
a reasonable basis for our findings and conclusions based on our audit objective.




Page 13                                             OIG-13-3 Personnel Security Clearances
Attachment II: Responses to Questions from OIG’s Survey on GAO
Personnel Security Clearances
We supplemented our work with a web-based survey of all GAO employees who had their
top secret clearances renewed in fiscal year 2012 to obtain their perspectives about their job
duties and responsibilities requiring top secret security clearances. We received responses
from 108 (76 percent) of the 143 surveyed employees. For more information about our
methodology for designing and distributing the survey, see attachment I.

Tables 1 through 16 show the responses to questions from the survey.

Table 1: Have you needed to use your GAO top secret security clearance to access top secret
information in the performance of your job duties or responsibilities in the last 5 years?

Question                                         Yes                    No               Don’t know                        Total
Number of Reponses                                61                    43                        4                         108
Source: OIG survey results.

Note: A top secret clearance is defined as a clearance that gives you access to information, the unauthorized disclosure of
which could reasonably be expected to cause exceptionally grave damage to the national security. For purposes of this survey,
a top secret clearance may be required to access certain Special Category Information that has additional security
requirements. The following list of Special Category Information types and definitions appeared in a hyperlinked pop-up box:
•     Special Access Program (SAP). SAPs are programs employing enhanced security measures exceeding those normally
      required for classified information of the same classification level.
•     Sensitive Compartmented Information (SCI). SCI is classified information concerning, or derived from, intelligence
      sources, methods, or analytical processes that must be handled within formal access control systems established by the
      Director, Central Intelligence Agency.
•     Restricted Data (RD). RD is classified information overseen by the Department of Energy (DOE) concerning the design,
      manufacture, or utilization of nuclear weapons; production of special nuclear material; or use of special nuclear material in
      the production of energy, not including data declassified or removed from the RD category (i.e., Formerly Restricted
      Data).
•     Formerly Restricted Data (FRD). FRD is classified information overseen by DOE and DOD relating to military utilization
      of atomic weapons that has been removed from the RD category.
•     Critical Nuclear Weapon Design Information (CNWDI). CNWDI is Top Secret RD or Secret RD overseen by DOE
      and/or DOD that reveals the theory of operation or design of the components of a thermonuclear or implosion type fission
      bomb, warhead, demolition munitions, or test device.
•     North Atlantic Treaty Organization (NATO) Information. NATO classified information is information that is circulated
      within and by member countries of NATO, and is classified by a NATO member, entered into the NATO security system,
      and is accessible by any NATO member.




Page 14                                                                  OIG-13-3 Personnel Security Clearances
Table 2: When was the last time you needed to use your GAO top secret security clearance to access top
secret information in the performance of your job duties or responsibilities?

                                  Within                       More than   More than
                                 the last 1 to 2 years         2 years to  3 years to            More than
Question                      12 months            ago       3 years ago 4 years ago           4 years ago       Unsure Total
Number of Reponses                    32               15                 7                3                 3           1     61
Source: OIG survey results.

Notes: Results reflect the responses of those that answered “Yes” to the question, “Have you needed to use your GAO top
secret security clearance to access top secret information in the performance of your job duties or responsibilities in the last 5
years?”
Respondents were also asked to provide a brief description of the top secret information they last accessed and how it related
to their job duties or responsibilities.




Table 3: Have you used your GAO top secret security clearance to access a facility that requires at least
a top secret security clearance for entry to, or ease of movement within, controlled areas in the last 5
years?

Question                                        Yes                     No                Don’t know                         Total
Number of Reponses                               48                     53                             7                      108
Source: OIG survey results.




Table 4: When was the last time you needed to use your GAO top secret security clearance to access a
facility that requires at least a top secret security clearance for entry to, or ease of movement within,
controlled areas?

                                    Within                            More than         More than
                                   the last      1 to 2 years         2 years to        3 years to           More than
Question                        12 months                 ago       3 years ago       4 years ago          4 years ago       Total
Number of Reponses                         27                8                   6                 6                 1             48
Source: OIG survey results.

Notes: Results reflect the responses of those that answered “Yes” to the question, “Have you used your GAO top secret
security clearance to access a facility that requires at least a top secret security clearance for entry to, or ease of movement
within, controlled areas in the least 5 years?”
Respondents were asked to provide a brief description of the purpose for their most recent visit when they used their GAO top
secret security clearance to access a facility that requires at least a top secret clearance for entry to, or ease of movement
within controlled areas.




Page 15                                                                    OIG-13-3 Personnel Security Clearances
Table 5: Have you used your GAO top secret security clearance to access a national security system in
the performance of your job duties or responsibilities in the last 5 years?

Question                                       Yes                      No                    Don’t know                       Total
Number of Responses                              27                      78                                 3                   108
Source: OIG survey results.

Notes: Examples of national security systems include: secure telephone units (STU-III/STE) approved to discuss top secret
information; security telephone equipment (STU-III/STE) approved to transmit top secret information; and designated
computers authorized to process top secret information.
Examples of national security systems do not include: the Secure Internet Protocol Router Network (SIPRNet); and Department
of Defense's Non-secure Internet Protocol Router Network (NIPRNet).
The following information on national security systems appeared in a hyperlinked pop-up box:
A national security system is any information system (including any telecommunications system) used or operated by an
agency or by a contractor of an agency, or other organization on behalf of an agency— (i) the function, operation, or use of
which— (I) involves intelligence activities; (II) involves cryptologic activities related to national security; (III) involves command
and control of military forces; (IV) involves equipment that is an integral part of a weapon or weapons system; or (V) is critical
to the direct fulfillment of military or intelligence missions; or (ii) is protected at all times by procedures established for
information that have been specifically authorized under criteria established by an executive order or an act of Congress to be
kept classified in the interest of national defense or foreign policy.




Table 6: When was the last time you needed to use your GAO top secret security clearance to access a
national security system in the performance of your job duties or responsibilities?

                                  Within                            More than          More than
                                 the last      1 to 2 years         2 years to         3 years to             More than
Question                      12 months                 ago       3 years ago        4 years ago            4 years ago         Total
Number of Reponses                     16                    6                  3                  2                   0           27
Source: OIG survey results.

Notes: Results reflect the responses of those that answered “Yes” to the question, “Have you used your GAO top secret
security clearance to access a national security system in the performance of your job duties or responsibilities in the last 5
years?”
Respondents were asked to provide a brief description of the national security system they last accessed and a description of
the top secret information accessed on the system.




Table 7: Have you needed to access information lower than top secret in the performance of your job
duties or responsibilities in the last 5 years?

Question                                         Yes                   No                 Not checked                           Total
Number of Reponses                                 99                    8                              1                         108
Source: OIG survey results.

Note: For purposes of this survey, information lower than top secret is defined as (1) secret or confidential information that
require protection against unauthorized disclosure in the interest of national security and (2) sensitive information under the
authority or control of GAO that is not classified information, but that requires protection to ensure that it is not released to the
public or any other individual or organization not under the authority or control of GAO without further review because it may be
exempted from such disclosure. Sensitive information includes Sensitive But Unclassified (SBU). The following information on
SBU appeared in a hyperlinked pop-up box:
Sensitive But Unclassified (SBU) information. SBU information is unclassified information an executive branch agency (or
an individual or component within such an agency) has designated as information that should be protected from unauthorized
disclosure. The term “SBU” is used both as a specific designation and a general category, which includes:
•     administrative designations such as “For Official Use Only” (FOUO), “Limited Official Use Only” (LOUO), and “Law
      Enforcement Sensitive” (LES), that executive branch agencies may use to describe unclassified information that may be
      exempt from public disclosure
•     statutory designations of unclassified information that should not be released to the public, such as transportation-related
      sensitive security information (SSI), unclassified controlled nuclear information (UCNI), and taxpayer data protected.




Page 16                                                                       OIG-13-3 Personnel Security Clearances
Table 8: What was the type of information you accessed in the performance of your job duties or
responsibilities in the last 5 years?

Question                           Secret           Confidential         Sensitive but unclassified         Other          Unsure
Number of Responses                     84                         66                              87             13              2
Source: OIG survey results.

Notes: Eighty-seven of 99 survey respondents who indicated that they needed to access information lower than top secret in
the performance of their job duties or responsibilities in the last 5 years provided responses to the survey question in the table
above. The total number or responses across all categories does not equal the total number of respondents (87) because
respondents could have selected more than one category.
Examples of “Other” responses included proprietary and business confidential information, procurement sensitive information,
competition sensitive information, GAO work papers, and personally identifiable information.




Table 9: When was the last time you needed to access information lower than top secret in the
performance of your job duties or responsibilities?

                                     Within                                More than   More than
                                    the last           1 to 2 years        2 years to  3 years to         More than
Question                         12 months                      ago      3 years ago 4 years ago        4 years ago             Total
Number of Reponses                           85                    10              2               1                   1          99
Source: OIG survey results.

Notes: Results reflect the responses of those that answered “Yes” to the question, “Have you needed to access information
lower than top secret in the performance of your job duties or responsibilities in the last 5 years?”




Table 10: Have you accessed a facility that requires a security clearance lower than top secret for entry
to, or ease of movement within, controlled areas in the last 5 years?

Question                                      Yes                       No     Don’t know         Not checked                  Total
Number of Reponses                                67                    33               6                    2                 108
Source: OIG survey results.




Table 11: When was the last time you accessed a facility that requires a security clearance lower than
top secret for entry to, or ease of movement within, controlled areas?

                                  Within                         More than          More than      More than
                                 the last         1 to 2 years   2 years to         3 years to       4 years
Question                      12 months                    ago 3 years ago        4 years ago            ago      Unsure Total
Number of Responses                      55                    5              4               2              0             1     67
Source: OIG survey results.

Note: Results reflect the responses of those that answered “Yes” to the question, “Have you accessed a facility that requires a
security clearance lower than top secret for entry to, or ease of movement within, controlled areas in the last 5 years?”




Page 17                                                                      OIG-13-3 Personnel Security Clearances
Table 12: Have you accessed a national security system that requires a clearance lower than top secret
in the performance of your job duties or responsibilities in the last 5 years?

Question                                        Yes                   No                 Don’t know                               Total
Number of Reponses                               64                   41                              3                            108
Source: OIG survey results.

Note: Examples of national security systems include Secure Internet Protocol Router Network (SIPRNet) and designated
computers authorized to process classified information. The following information on national security systems appeared in a
hyperlinked pop-up box:
A national security system is any information system (including any telecommunications system) used or operated by an
agency or by a contractor of an agency, or other organization on behalf of an agency— (i) the function, operation, or use of
which— (I) involves intelligence activities; (II) involves cryptologic activities related to national security; (III) involves command
and control of military forces; (IV) involves equipment that is an integral part of a weapon or weapons system; or (V) is critical
to the direct fulfillment of military or intelligence missions; or (ii) is protected at all times by procedures established for
information that have been specifically authorized under criteria established by an executive order or an act of Congress to be
kept classified in the interest of national defense or foreign policy.




Table 13: When was the last time you accessed a national security system that requires a security
clearance lower than top secret in the performance of your job duties or responsibilities?

                                    Within                 More than More than
                                   the last 1 to 2 years   2 years to  3 years to  More than
Question                        12 months            ago 3 years ago 4 years ago 4 years ago Unsure Total
Number of Responses                        50                 4                5                1                 2           2      64
Source: OIG survey results.

Note: Results reflect the responses of those that answered “Yes” to the question, “Have you accessed a national security
system that requires a clearance lower than top secret in the performance of your job duties or responsibilities in the last 5
years?”




Table 14: Have you used your GAO top secret security clearance to perform any other job duties or
responsibilities in the last 5 years not already identified?

Question                                          Yes                  No               Don’t know                                Total
Number of Reponses                                 19                   85                            4                            108
Source: OIG survey results.

Note: Respondents were asked to provide a brief explanation of how they used their GAO top secret security clearance to
perform any other assigned duties or responsibilities.




Table 15: Based on your need to use your GAO top secret security clearance to perform your job duties
or responsibilities in the last 5 years, which of the following best describes your need for a top security
clearance?

                               My job duties or              My job duties or
                               responsibilities               responsibilities           My job duties or
                                 required a top         required a lower than         responsibilities did
                                secret security           top secret security               not require a
Question:                            clearance                      clearance          security clearance Unsure                  Total
Number of Responses                              68                             32                            4           4        108
Source: OIG survey results.




Page 18                                                                      OIG-13-3 Personnel Security Clearances
Table 16: To the best of your knowledge, which of the following best describes the reason that your top
secret security clearance was renewed in fiscal year 2012?

                                                               My current job duties or
                                 My current job duties            responsibilities may
                                 or responsibilities do          require access to top
                                 require access to top          secret information at a
Question:                           secret information                      future date              Unsure            Total
Number of Responses                                    46                                61                 1            108
Source: OIG survey results.

Note: Respondents were asked to provide additional comments they had about their job duties or responsibilities requiring a
top secret clearance.




Page 19                                                                OIG-13-3 Personnel Security Clearances
Attachment III: Comments from the U.S. Government Accountability Office




Page 20                                  OIG-13-3 Personnel Security Clearances
                      To report fraud, waste, and abuse in GAO’s internal operations, do one of
Reporting Fraud,      the following. (You may do so anonymously.)
Waste, and Abuse in
                      •   Call toll-free (866) 680-7963 to speak with a hotline specialist,
GAO’s Internal            available 24 hours a day, 7 days a week.
Operations
                      •   Online at: https://OIG.alertline.com.

                      To obtain copies of OIG reports and testimony, go to GAO’s Web site:
Obtaining Copies of   www.gao.gov/about/workforce/ig.html.
OIG Reports and
Testimony
                      Chuck Young, Managing Director, youngc1@gao.gov, (202) 512-4800
Public Affairs        U.S. Government Accountability Office, 441 G Street NW, Room 7149,
                      Washington, DC 20548
